Background and Finding

       The Recovery Act (Section 1604 “General Provisions-This Act”) states, “None of the
funds appropriated or otherwise made available in this Act may be used by any State or local
government, or any private entity, for any casino or other gambling establishment, aquarium,
zoo, golf course, or swimming pool.” On March 20, 2009, the White House issued a Presidential
memorandum to the heads of executive departments and agencies titled “Ensuring Responsible
Spending of Recovery Act Funds.” Section 2 of that memorandum stresses the importance of
avoiding the funding of imprudent projects. The section states, in part, “Funds under the
Recovery Act shall not be committed, obligated, or expended by any executive department or
agency, and shall not be used by any State or local governmental or private grantee or awardee,
to support projects of the type described in section 1604 of Division A of the Recovery Act.”
This memorandum thus extends the prohibition on use of Recovery Act funds for aquariums to
executive departments and agencies.

        We identified two projects posted on fedbizopps.gov that may violate the prohibition on
the use of Recovery Act funds for aquariums. The first project was “RECOVERY- Mammoth
Spring Aquarium Administration and Environmental Facility Phase II.” We verified that this
project was listed on the FWS Recovery and Act project list as “Construct visitor center at
Mammoth Spring National Fish Hatchery.” We contacted the contracting officer, who stated
that the project involves the construction of a visitor center/environmental education facility.
The posting notes, “The Mammoth Spring Aquarium/Visitor Center will be approximately 3,600
SF for Phase I and 3,354SF for Phase II for a total of 6,954 SF. The Aquarium/Visitor Center
will include a [sic] aquarium, book store, exhibit space, environmental education classrooms, as
well as other attractions.” The contracting officer stated that the costs of the aquariums are
projected to be a small part of the overall project costs.  

        The second project was “Recovery Act Award Solicitation No. 40181RQ021HVAC
Residence, Edenton & A/C Aquarium, Edenton.” The posting notes, “This RFQ [request for
quote] also includes the Aquarium HVAC Replacement at Edenton National Fish Hatchery,
Edenton, NC.” We verified that this project was included on the FWS Recovery Act project list1
as “Replace HVAC system at Edenton National Fish Hatchery.” We contacted the contracting
officer for this project, who provided a more detailed description of the project. She noted that
the “main purpose of this building is to provide educational space and materials for aquatic
education and natural resource programs held by the hatchery to meet the Services' Connecting
Kids With Nature program as well as supporting the SE [Southeast] Regions' Biologist -in-
Training program .” She also noted that “the acquarium [sic] is housed in this building as well; it
also supports other functions as well and is not a direct expenditure of the acquarium [sic] itself.”

        We realize that the neither of these projects has the main purpose of constructing or
supporting aquariums. We understand that neither the Recovery Act nor the Presidential
memorandum clearly define “aquarium” and do not distinguish between a building used
primarily as an aquarium for public use and a building housing fish tanks (aquariums) as a part
of other displays or exhibits. Because of this ambiguity, we think the most conservative
                                                               
   1
     Each bureau that received Recovery Act funding prepared a list of projects it intends to fund with Recovery 
   Act monies.  

                                                                                                                    2  
    
approach is for FWS to eliminate any direct spending for aquariums and to seek clarification of
the issue to ensure the integrity of Interior Recovery Act implementation.

Recommendations

We recommend that the Department and FWS:

        1.	 Ensure no Recovery Act funds are used to purchase aquariums.

        2.	 Seek written clarification from the Office of Management and Budget (OMB) regarding
            the use of Recovery Act funds for projects that include aquariums, even when the funds
            will not be used to purchase aquariums directly.

cc: 	      Assistant Secretary – Policy, Management and Budget
           Director, Office of Acquisition and Property Management
           Director, Office of Financial Management
           Director, U.S. Fish and Wildlife Service
           Recovery Coordinator, U.S. Fish and Wildlife Service
           Project Lead, U.S. Fish and Wildlife Service
           Acting FWS Audit Liaison
           Departmental GAO/OIG Audit Liaison
           Audit Liaison, Office of the Secretary




                                                                                                     3  
     
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
